OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/PAKISTAN’S
SMALL GRANTS PROGRAM
AUDIT REPORT NO. G-391-13-005-P
SEPTEMBER 17, 2013




ISLAMABAD, PAKISTAN
Office of Inspector General



September 17, 2013

MEMORANDUM

TO:                  USAID/Pakistan Mission Director, Gregory C. Gottlieb

FROM:                Office of Inspector General/Pakistan Director, Matthew Rathgeber /s/

SUBJECT:             Audit of USAID/Pakistan’s Small Grants Program
                     (Report No. G-391-13-005-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments and included them in Appendix II.

The final report contains three recommendations to help improve the Small Grants Program.
The mission made management decisions on all of them. The Audit Performance and
Compliance Division will determine final action when the mission completes planned corrective
actions on the recommendations.

Thank you and your staff for the cooperation and courtesies extended to us during this audit.




U.S. Agency for International Development
American Embassy, Diplomatic Enclave
Ramna 5, Islamabad, Pakistan
http://oig.usaid.gov
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 3

     Program Did Not Meet Target and Put a Hold on New Applications ...................................... 3

     Mission Did Not Follow Its Guidance for Approving Small Grants .......................................... 5

Evaluation of Management Comments.................................................................................... 7

Appendix I—Scope and Methodology ..................................................................................... 8

Appendix II—Management Comments .................................................................................. 10
SUMMARY OF RESULTS
USAID/Pakistan’s Small Grants Program allows community-based and nongovernmental
organizations throughout the country to set their own development agenda. The program
encourages groups to submit concept papers for activities they believe would contribute to
economic growth, education, health, democracy and governance, and other areas. The
activities should have significant impact and be unique, innovative, compatible with the
mission’s overall objectives, and sustainable after funding ceases.

To help implement the program, in August 2010 the mission awarded the National Rural
Support Programme, a local nongovernmental organization, a $50 million, 5-year, cost-plus-
fixed-fee contract.1 The $50 million contract provides $25 million each to USAID/Pakistan’s
Small Grants Program and the Ambassador’s Fund Program. This audit focused on
USAID/Pakistan’s Small Grants Program only. As of May 31, 2013, the mission had obligated
approximately $11.3 million and spent $5.5 million for the Small Grants Program, which awards
grants ranging from $150,000 to $250,000.

The Office of Inspector General conducted this audit to determine whether USAID/Pakistan’s
Small Grants Program was achieving its goal: to support the mission’s development objectives
that focus on development impact and sustainability.

USAID/Pakistan’s Small Grants Program has had mixed results. Some grants were making a
difference. For example, one grantee organization was using a unique and innovative approach
to training teachers. It created training videos and downloaded these videos on the teachers’
cell phones for them to view and apply the teaching techniques in the classroom. Another
grantee was providing health-care coverage including x-rays and hospitalizations according to a
health maintenance organization model, which is a new way of serving the marginalized
community it operates in. However, three of nine grants tested—which had received $331,783
as of March 31, 2013—did not achieve development impact or sustainability.

The audit disclosed two weaknesses in program implementation:

    The program did not achieve its target of awarding 20 grants per year and put a hold on new
    applications because of insufficient funding (page 3). The mission had shifted from collecting
    funding from all the technical offices to requiring a single office to fund the program. The
    other offices’ lost ownership of the grants was reflected in shortcomings the audit disclosed,
    like the three grants not meeting expectations. Meanwhile, applicants are in limbo, and the
    mission continues to pay more than $159,660 per month in fixed operating costs whether or
    not any new grants are processed.

    The mission did not follow its Mission Order 300.2 for approving small grants (page 5).
    Instead, the Democracy and Governance Office distributed condensed guidance that did not
    explain how to document the review and approval of concept papers and grant proposals,


1
  Under Federal Acquisition Regulation 16.306, “a cost-plus-fixed-fee contracts is a cost-
reimbursement contract that provides for payment to the contractor of a negotiated fee that is
fixed at the inception of the contract.”



                                                                                                 1
   tell how much time this process should take, or define what makes a grant unique or
   innovative.

To improve the efficiency of this program, we recommend that USAID/Pakistan:

1. Implement a funding plan for the Small Grants Program that incorporates ownership by the
   technical offices (page 5).

2. Implement a plan for technical offices to monitor the Small Grants Program for development
   impact and sustainability (page 5).

3. Update Small Grants Program guidance to comply with Mission Order 300.2, detailing steps
   for the technical offices to review and approve small grant concept papers and full
   applications and prescribing time frames for completing each step (page 6).

Detailed findings appear in the following section, and the scope and methodology appear in
Appendix I. Our evaluation of management comments is on page 7, and the full text of
management comments appears in Appendix II.




                                                                                           2
AUDIT FINDINGS
Program Did Not Meet Target and
Put a Hold on New Applications
The Small Grants Program contract states that the mission will issue 20 small grants per year or
100 small grants over a period of 5 years. The small grants are to contribute to the mission’s
overall objective, have a development impact, and be sustainable.

However, the program did not meet its third-year target for awarding grants and has stalled. As
of May 2013, the mission had issued 43 grants, falling short by 17 the number of grants
intended to provide assistance to Pakistani community-based organizations. In February 2013,
the program was making progress toward achieving its third-year target, having approved
38 additional concept papers and asked prospective grantees to submit full applications. Then
in March 2013, the mission notified the contractor, National Rural Support Programme, to
suspend new grant applications and not accept any concept papers. Therefore, the program did
not meet its third-year target.

Changes in management and in mission priorities reduced the program’s budget, prompting the
suspension. During the first 3 months of implementation, the mission’s program office managed
the program, and technical offices—health, education, etc.—funded those small grants that fell
under their purview. However, because the program office was unable to manage the hundreds of
proposals, the mission delegated responsibility to the Office of Democracy and Governance; its
workload was comparatively light because governance programs were not a high priority at the
time. Making it responsible for managing and funding the program meant that the technical offices
were no longer funding their respective grants, and they soon stopped monitoring activities for
development impact and sustainability.

When a shift in management revived mission interest in governance, the Office of Democracy
and Governance cut funding for small grants. It had little interest in managing and funding them
since only 2 of the 43 grants were directly related to democracy and governance (Figure 1).

         Figure 1. Approved Grants as of May 2013 by Technical Office (Audited)

                              $3.3         $3.2
                                                                                $2.8



               $ million
                                                       $0.77
                                                                    $0.46


                            Economic     Education   Energy (3)   Demacracy Health (12)
                           Growth (13)     (13)                      and
                                                                  Governance
                                                                      (2)




                                                                                               3
Further, the mission reported that only 1 of the 38 pending grant applications was related to
democracy and governance (Figure 2).

         Figure 2. Pending Grants as of May 2013 by Technical Office (Unaudited)

                  $2.3

                              $2.0
                                          $1.80

   $ million
                                                                                            $1.3




                                                                 $0.50        $0.50
                                                      $0.24


                Economic Education (8) Energy (7)   Democracy Gender (3)   Stablization   Health (6)
               Growth (11)                             and                     (2)
                                                    Governance
                                                        (1)


Because of a lack of ownership by the technical offices, three of nine grants tested did not
achieve development impact or sustainability. As of March 31, 2013, the mission had disbursed
a total of $331,783 for these three grants. Although the grant applications had sustainability
components, the three grants will not be sustainable once the activities end.

   For one grantee, the main goal was to analyze and translate all available data on
   immunization and maternal health into easy-to-understand policy briefs for government
   decision makers, politicians, and print media. The briefs would be used to improve the
   performance and outcomes of maternal and child health and family planning programs in
   Pakistan. However, the grantee was unable to determine if government decision makers
   were using the data and policy briefs. The mission’s Office of Health did not use the policy
   briefs because it lacked confidence in the grantee’s methodologies and work products.
   Initially the mission was not in favor of approving this grant; however, mission officials said
   they were under pressure to do so. The Ambassador assigned as the Special
   Representative for Afghanistan and Pakistan at the U.S. Embassy sent an e-mail to the
   contracting officer’s representative instructing the latter to move this grantee’s application
   forward quickly.

   For the second grantee, the main objective was to provide training to enhance the
   housekeeping skills of 1,000 women from underprivileged backgrounds. After the women
   completed the training, this activity aimed to find jobs for them to improve their standard of
   living and empower them economically. However, the grantee did not provide employment
   to a majority of the women trained. In addition, the grantee planned to fund the training
   program in the future by charging prospective employers 1,000 rupees; however, 1,000
   rupees per trainee was not enough to cover the costs of the training program.


                                                                                                       4
   The contractor terminated the third grantee’s award after a year because the grantee was
   not implementing activities in accordance with the objectives. The grantee was supposed to
   teach 21,000 female family members of the children in school run by the grantee to read.
   Instead, the grantee taught other pupils: 80 percent of those enrolled were not family
   members of the schoolchildren. The mission spent $68,000 on the award before it was
   terminated.

Meanwhile, the contractor bills the mission about $150,000 a month whether or not new grants
are awarded, and the mission incurs costs of about $9,660 a month for the salaries of the staff
managing the program—the contracting officer’s representative and the small grants
administrator. Without continued funding, the program will not be able to foster unique,
innovative activities that contribute to USAID/Pakistan’s overall strategic objectives. Moreover,
the suspension of awards reflected poorly on the mission’s reputation among small grantees. To
allow the small grants program to continue, we make the following recommendations.

   Recommendation 1. We recommend that USAID/Pakistan implement a funding plan for
   the Small Grants Program that incorporates ownership from the technical offices.

   Recommendation 2. We recommend that USAID/Pakistan implement a plan for
   technical offices to monitor the Small Grants Program for development impact and
   sustainability.

Mission Did Not Follow Its Guidance
for Approving Small Grants

Mission Order 300.2, “Procedures for Review and Award of Unsolicited Proposals,” states that
the concept paper should be unique and innovative and must support USAID/Pakistan’s
strategic goals. Technical evaluation committees determine if the concept paper meets criteria
such as uniqueness, innovativeness, development impact, and sustainability. Technical
evaluation committees consist of individuals from the technical office they represent and from
the program office. The technical offices are then responsible for carrying out and documenting
the various steps to evaluate concept papers and grant proposals within certain time frames and
for maintaining all correspondence and documentation pertaining to all applications.

The Office of Democracy and Governance provided technical offices with condensed guidance
for processing small grants applications, outlining the flow of concept papers and full
applications. The guidance states that the small grants administrator receives concept papers
from the contractor. The small grants administrator distributes the proposals to the appropriate
technical office in Islamabad and to applicable provincial offices for their review and approval.
Provincial offices and Islamabad technical offices review the concept papers simultaneously. If a
technical office approves the concept paper, the applicant is notified to develop a full
application, including a detailed budget. Upon receiving a full application, the small grants
administrator again routes it to the technical office that initially approved the concept paper. If
the concept paper is not approved, no further action is needed, and USAID tells applicants why
the concept paper was rejected.

However, the Office of Democracy and Governance guidance for processing concept papers
and full applications did not contain all the requirements of the mission order. The guidance did
not provide detail on technical offices’ roles and responsibilities. It did not provide detailed
written procedures on how to approve or decline a grant application, document both the final


                                                                                                 5
determination and the characteristics that made a grant unique or innovative, or the time frame
to complete the various stages of the approval process. The guidance was an informal “thumbs
up” or “thumbs down” approach provided to the technical offices for approving concept papers
and full applications.

The incomplete guidance led to inconsistencies among the technical offices in reviewing and
approving grants for uniqueness, innovativeness, and sustainability. Whereas the Office of
Health assigned a staff member to determine whether the idea presented in the concept paper
met all requirements, the Office of Education involved various staff, including provincial
personnel, in reviewing and approving concept papers and full applications. Neither office
maintained documentation on final determinations, including whether the concept papers were
unique and innovative.

Because of this lack of documentation, the following occurred:

   Current staff in the technical offices did not know why four of the nine grants tested were
   approved.

   The Office of Education staff were not familiar with the education grants covered by this
   audit.

   USAID approved a grantee to perform cataract surgeries for approximately 11,400 women.
   The selected grantee has been providing eye care, including cataract surgery, since 1985;
   the grantee could not demonstrate how the grant was unique or innovative.

By relying on condensed guidance instead of the mission order, mission officials bypassed
establishing technical evaluation committees and other important steps. Officials did not follow
the mission order for approving small grants because they wanted to streamline the review and
approval process to issue the grants faster. Consequently, they approved some grants that did
not achieve program objectives.

To improve the mission’s review and approval process related to the small grants process, we
make the following recommendation.

   Recommendation 3. We recommend that USAID/Pakistan update its Small Grants
   Program guidance to comply with Mission Order 300.2, detailing steps for the technical
   offices to review and approve small grant concept papers and full applications and
   prescribing time frames for completing each step.




                                                                                              6
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Pakistan agreed with the three recommendations in the draft report.

Recommendation 1. USAID/Pakistan agreed to implement a funding plan for the Small Grants
Program that incorporates ownership by the technical offices. The mission intends to change
the structure of the Small Grants Program to a solicited, demand-driven model led by
participating technical offices. By November 30, 2013, the mission will complete an action
memo outlining the new structure, to include a funding plan that incorporates ownership by the
technical offices. Accordingly, the mission has reached a management decision.

Recommendation 2. USAID/Pakistan agreed to implement a plan for technical offices to
monitor the Small Grants Program for development impact and sustainability. The new structure
will charge technical offices with monitoring. The mission expects to complete an outline of the
new Small Grants Program structure by November 30, 2013. Accordingly, the mission has
reached a management decision.

Recommendation 3. The mission agreed to update processes for reviewing and awarding
small grants. However, having decided to adopt a demand-driven model for the program, the
mission will not update guidance to comply with Mission Order 300.2, which covers the review
of unsolicited proposals. Along with changing the program’s structure, USAID/Pakistan intends
to amend the contract to move from “innovation and uniqueness” to activities that fit with the
mission’s strategic framework: stabilization, education, health, economic growth, democracy
and governance. The mission plans to amend the contract by November 30, 2013. Accordingly,
the mission has reached a management decision.

The Audit Performance and Compliance Division will determine final action on completion of the
planned corrective actions for Recommendations 1, 2, and 3. The mission’s written comments
on the draft report are included in their entirety, without attachments, as Appendix II of this
report.




                                                                                              7
                                                                                      Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this audit was to determine whether USAID/Pakistan’s Small Grants Program
achieved its goal to support the mission’s development objectives that focus on development
impact and address sustainability. As of May 31, 2013, the mission had obligated approximately
$11.3 million and spent $5.5 million on the Small Grants Program. The audit team reviewed
performance information for August 2010 through June 2013 and evaluated the major activities
implemented under the contract.

In planning and performing the audit, the audit team reviewed the control environment at the
mission. We examined the mission’s fiscal year 2012 self-assessment of management controls,
required by the Federal Managers’ Financial Integrity Act of 1982 (as codified in 31 U.S.C.
3512), to check whether the assessment cited any relevant weaknesses. We also reviewed
USAID policies and procedures pertaining to USAID/Pakistan’s Small Grants Program, including
Automated Directives System Chapters 200 and 303.

The audit team assessed the significant internal controls used by the mission to manage the
activities. These controls included maintaining regular contact with the implementer, reviewing
and approving key decisions, performing site visits, and assessing reported results. The audit
team also reviewed the implementer’s control environment, including a review of the grant-
making process, quality control, accounting functions, and the reporting of results.

The audit team performed fieldwork at the USAID/Pakistan mission in Islamabad, its provincial
offices in Karachi and Lahore, and the contractor’s main office in Islamabad. The team met with
eight of the nine grantees selected in Punjab, Sindh, and Islamabad from March 8 through
June 13, 2013.

Methodology
To answer the audit objective, we reviewed mission documents used to manage and monitor
the activities. These documents included the activity approval document, performance
management plans, the contract, reported results, financial reports, e-mail correspondence, and
site visit reports. We also interviewed mission officials; staff at the contractor’s office; and
stakeholders including local grantees, community members, and beneficiaries. We also
compared plan targets with reported results.

To see whether activities funded by grants achieved development impact or sustainability, the
audit team first determined whether they met the performance indicator targets in the contract
and measured the effectiveness of the activities. The contract included targets for the number of



                                                                                               8
                                                                                        Appendix I


grants to be awarded each year. The audit team judgmentally sampled nine grants implemented
under the contract, totaling about $1 million.

The audit evaluated whether performance indicators were sufficient to permit their use in
answering the audit objective. Through discussions with USAID/Pakistan officials and the
contractor, the auditors gained an understanding of how the (1) indicators were defined, (2) data
sources were used, and (3) data flowed from the project sites to the mission for inclusion in
monthly reports.

In assessing the status of the activities carried out during the first 3 years of the contract, the
auditors relied primarily on the contractor’s quarterly and annual progress reports from
September 2010 through May 2013, supplemented by interviews conducted with
USAID/Pakistan officials, contractors, grantees, and beneficiaries about achievements and
problems reflected in these reports.

To validate data for the activities, the auditors checked reported results against supporting
documentation maintained by the contractor. The audit team also visited eight sites to monitor
progress; speak with grantees, beneficiaries, and community stakeholders; and verify reported
results.




                                                                                                 9
                                                                                      Appendix II



MANAGEMENT COMMENTS
MEMORANDUM

Date                  September 03, 2013
To                    Matthew Rathgeber – Director/OIG Pakistan
From                  Gregory Gottlieb – Mission Director USAID/Pakistan /s/
Subject               Audit of USAID/Pakistan’s Small Grants Program
                      Mission Response to Performance Audit Report No. G-391-13-005-P
Reference
                      dated July 31, 2013

The USAID/Pakistan Mission would like to thank the OIG for providing the Mission the
opportunity to review the draft performance audit report of the Small Grants Program and for
their professionalism and transparency in the process. The Mission management appreciates
efforts of the OIG in explaining the audit process and maintaining a collegial atmosphere.
Please find below our management comments on the recommendations included in the
referenced audit report.


Recommendation No. 1 We recommend that USAID/Pakistan implement a funding plan
for the Small Grants Program that incorporates ownership from the technical offices.

Management Comments: Mission management agrees with this recommendation. We would
like to further emphasize that increasing technical office ownership of Small Grants projects is
crucial to the impact and sustainability of both individual projects and the Program overall.
Accordingly, we intend to change the structure of the Small Grants Program to a solicited,
demand-driven model led by participating technical offices. Offices that elect to use the Small
Grants Program will provide funding and management for projects in their sector. While the
Program itself will offer support to participating technical offices, there will be no other funds
available for grants that do not come from a technical office. There will be limited DG core
funding dedicated to Program management and DG grants. This new structure will dramatically
increase technical office ownership of Small Grants activities and results. We expect the new
Small Grants Program to be a much smaller program, more closely aligned with each sector’s
results framework. We expect to complete an Action Memo outlining a new Small Grants
Program structure, to include a funding plan, by November 30, 2013.


Recommendation No. 2 We recommend that USAID/Pakistan implement a plan for
technical offices to monitor the Small Grants Program for development impact and
sustainability.



                                                                                               10
                                                                                      Appendix II


Management Comments: Mission management agrees with this recommendation. Under the
intended new structure of the Small Grants Program, technical offices will participate in the
management of projects in their sectors. Tracking progress towards results would be a key
responsibility of these offices, giving them a direct line of responsibility for monitoring
development outcome and sustainability. We expect to complete an outline of the new Small
Grants Program structure, detailing these responsibilities, by November 30, 2013.

In addition to increasing technical office monitoring of Small Grants projects, increasing site
visits and monitoring of all small grant awards is one of our top priorities. The Democracy and
Governance Office is in the process of developing an action plan to increase and better track
site/monitoring visits of all projects. This plan is expected to be completed by November 30,
2013.


Recommendation No. 3 We recommend that USAID/Pakistan update its Small Grants
Program guidance to comply with Mission Order 300.2, detailing steps for the technical
offices to review and approve small grants concept papers and full applications and
prescribing time frames for completing each step.

Management Comments: The Mission is in agreement that the processes for the review and
award of Small Grants require updating. While the contract’s Statement of Work prescribes a
‘close following’ of Mission Order 300.2, we do not believe that the intent was to mimic the
Mission Order specifically and restrictively. The Mission has, accordingly, reassessed the
current environment in which the program is executed versus that when the award was made.
The Mission has moved forward from the intensity of responding to the Kerry-Luger-Bergman
Act when Mission staffing was less than required and has determined that the Small Grants
Program should reflect this transition. Mission programs now respond to a Mission Strategic
Framework, which provides a formal structure for defining and prioritizing development needs.
Accordingly, the Small Grants Program will be amended to move from ‘innovation and
uniqueness’ to what is ‘needed’ in the current Framework, e.g. activities in support of
stabilization, education, health, economic growth, democracy and governance, achieved
through targeted, ‘solicited’ applications rather than ‘unsolicited’. The contract’s language will
be modified accordingly, with a proposed completion date of November 30, 2013.




                                                                                               11
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
